Nos. 19-251 & 19-255
In the

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION,

Petitioner,

v.

MATTHEW RODRIQUEZ, ACTING ATTORNEY
GENERAL FOR THE STATE OF CALIFORNIA,

Respondent.

_________
THOMAS MORE LAW CENTER,
Petitioner,

v.

MATTHEW RODRIQUEZ, ACTING ATTORNEY
GENERAL FOR THE STATE OF CALIFORNIA,
Respondent.
_____________________________
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
_____________________________

BRIEF OF AMICI CURIAE LEGAL HISTORIANS
IN SUPPORT OF RESPONDENT
_______________________________

ERIN BERNSTEIN
DARIN SANDS
Counsel of Record
ABIGAIL BURMAN
BRADLEY BERNSTEIN SANDS LLP
3911 HARRISON ST., SUITE 100
OAKLAND, CA 94611

DAVID FREEMAN ENGSTROM
PROFESSOR OF LAW,
BERNARD D. BERGREEN
FACULTY SCHOLAR, AND
ASSOCIATE DEAN
STANFORD LAW SCHOOL
559 NATHAN ABBOTT WAY
STANFORD, CA 94305

Counsel for Amici Curiae
GibsonMoore Appellate Services, LLC
206 East Cary Street♦ Richmond, VA 23219
804-249-7770 ♦
www.gibsonmoore.net

i
TABLE OF CONTENTS
Page:
TABLE OF AUTHORITIES....................................... ii
INTEREST OF AMICI CURIAE ............................... 1
SUMMARY OF ARGUMENT .................................... 1
ARGUMENT .............................................................. 3
I. THIS COURT DECIDED NAACP V.
ALABAMA
AMIDST
PERVASIVE
PRIVATE AND PUBLIC VIOLENCE
AGAINST BLACK AMERICANS AND
WHITE
RACISTS’
EFFORTS
TO
PREVENT THEM FROM ORGANIZING ........... 3
A. The NAACP Had Long Been a Target of
Violence By Public and Private Opponents of Black Political Organizers in
the South .......................................................... 3
B. The Court’s Rulings in NAACP v. Alabama and its Progeny Were Rooted in
Thick Evidentiary Records of Violence
Against NAACP Members............................... 9
II. THE CONTEMPORARY CONTEXT OF
PETITIONERS’ REFUSAL TO MAKE
CONFIDENTIAL
DISCLOSURES
CONTRASTS SHARPLY WITH THAT
FACED BY THE NAACP IN THE 1950s
AND 1960s .......................................................... 14
A. Threats of Harm ............................................ 15
B. Nature of Disclosure ...................................... 17
C. Legal Recourse ............................................... 18
CONCLUSION ......................................................... 21

ii
TABLE OF AUTHORITIES
Page(s)
Cases
Bates v. City of Little Rock,
361 U.S. 516 (1960) ............................12, 13, 17, 20
Brown v. Board of Education,
347 U.S. 483 (1954) ................................... 5, 18, 19
Doe v. Reed,
561 U.S. 186 (2010) ............................................. 17
Gayle v. Browder,
352 U.S. 903 (1956) ............................................... 5
Gibson v. Florida Legislative
Investigation Commission,
372 U.S. 539 (1963) ................................. 13, 17, 20
NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958) ...................................... passim
NAACP v. Button,
371 U.S. 415 (1963) ....................................... 10, 13
United States v. City of Jackson, Miss.,
318 F.2d 1 (5th Cir. 1963) ................................... 19
Williams v. Wallace,
240 F. Supp. 100 (M.D. Ala. 1965) ....................... 7
Statutes
Cal. Code Regs. tit. 11, § 310(b) ............................... 20
Constitutional Provisions
U.S. Cons. amend. I.................................... 1, 3, 16, 17
U.S. Cons. amend. XIV ............................................ 10

iii
Other Authorities
B. Green, Before His Time: The Untold
Story of Harry T. Moore, America’s
First Civil Rights Martyr (1999) ................................ 6
Bermanzohn, Violence, Nonviolence,
and the Civil Rights Movement (2000) ...................... 5
Brief for Petitioner,
NAACP v. Ala. ex rel. Patterson,
357 U.S. 449 (1958), No. 91, 1957 WL 87216 ....... 6
Eskridge, Some Effects of Identity-Based
Social Movements on Constitutional
Law in the Twentieth Century,
100 Mich. L. Rev. 2062 (2002) ........................ 4, 15
Finkelman, The Long Road to Dignity: The
Wrong of Segregation and What the Civil
Rights Act of 1964 Had to Change,
74 La. L. Rev. 1039 (2014) .................................... 4
H. Shapiro, White Violence and Black Response:
From Reconstruction to Montgomery xii
(Univ. Mass. Press, 1988) .................................... 4
J. Salmond, The Conscience Of A Lawyer:
Clifford J. Durr And American Civil Liberties,
1899-1975 (1990) ................................................... 8
Lee, Democratizing the Economic Sphere:
A Case for the Political Boycott,
115 W. Va. L. Rev. 531 (2012) ............................. 16
M. Klarman, From Jim Crow to Civil Rights:
The Supreme Court and the Struggle for
Racial Equality (2004) ............................................... 7

iv
M. Klarman, How Brown Changed
Race Relations: The Backlash Thesis,
81 J. Am. Hist. 81 (1994). .................................... 5
M. Tushnet, Making Civil Rights Law:
Thurgood Marshall and The Supreme Court,
1936–1961 (1994)........................................................ 9
P. Sullivan, Lift Every Voice: The
NAACP and the Making Of The
Civil Rights Movement (2009) .............................. 4, 15
R. Arsenault, Freedom Riders: 1961 and the
Struggle for Racial Justice 136 (2006) ...................... 7
Schmidt, New York Times v. Sullivan and the
Legal Attack on the Civil Rights Movement,
66 Ala. L. Rev. 293 (2014) ........................... 6, 8, 10
T. Branch, Parting the Waters: America In the
King Years 1954-63 (1988) ......................................... 6
V. Jordan, Jr. & A. Gordon-Reed,
Vernon Can Read! A Memoir (2008) .......................... 9

1
INTEREST OF AMICI CURIAE
Amici curiae are professors from a variety of
academic disciplines who, taken together, have
written dozens of books and articles regarding the
social and political context at the time of this Court’s
decision in NAACP v. Alabama ex rel. Patterson, 357
U.S. 449 (1958). Amici believe that a thorough
examination of the historical context of NAACP v.
Alabama and its progeny is crucial to understanding
the associational rights asserted in the present case.
A complete list of amici who reviewed and join in this
brief is included in the attached Appendix. Amici file
this brief solely as individuals and not on behalf of
any institution with which they are affiliated.
Affiliations are provided solely for the purpose of
identification.1
SUMMARY OF ARGUMENT
Amici call upon the Court to preserve the balance
between two fundamental principles of American
democracy: transparency, on the one hand, and the
First Amendment right of free association elaborated
in NAACP v. Alabama, on the other. This Court’s
holdings in that case and its progeny were deeply
informed by a context thick with governmentsponsored public and private violence against Black
citizens when the case was heard. The Court reviewed
detailed evidentiary records establishing widespread
1 Petitioners

filed a blanket consent with this Court. Respondent
was given timely notice and consented in writing to the filing of
this amici curiae brief under USSC Rule 37.2. Pursuant to this
Court’s Rule 37.6, we note that no part of this brief was authored
by counsel for any party, and no person or entity other than
amici curiae or their counsel made any monetary contribution to
the preparation or submission of the brief.

2
threats—and actual commission—of terrorist acts
against NAACP members and donors.2
The circumstances facing NAACP members and
donors at the time of the Court’s 1958 decision were
strikingly different from those Petitioners face today.
Petitioners in this case cannot point to any
meaningful threat of violence if donor identities are
revealed, let alone state-sanctioned violence. By
contrast, in 1958, the NAACP and its members had
been subjected to decades-long campaigns of
persecution and violence by supporters of white
supremacy and segregation. Moreover, the State of
Alabama was an active participant in this campaign
of terror and repression. The State both facilitated
harassment and violence by private parties and used
its own resources to torment and attack civil rights
supporters.
Finally, in the present case, Petitioners are
required to provide select donor information to the
California Attorney General. That information is
already confidentially shared with the IRS and may
not, under California law, be publicly disclosed. By
comparison, in 1958, the State of Alabama, as with
the states in the subsequent NAACP membership
disclosure cases, did nothing to guarantee that the
NAACP’s membership lists would remain confidential
after disclosure. To the contrary, the Alabama
government’s open support of white supremacist
While this Brief does not seek to establish a test for when public
disclosure of a group’s members or donors triggers the
associational right, amici think it important to note the extreme
divergence between the historical context of public and private
violence in which NAACP v. Alabama was decided and the
Petitioners’ thin evidentiary record of threatened or actual
harms.
2

3
groups made it all but certain that any information
provided to the State would quickly make its way to
private parties hostile to the NAACP and its
members.
This Court should consider the history of racial
violence in the southern states as an important
foundation of the associational right established in
NAACP v. Alabama. That history diverges
dramatically from Petitioners’ thin evidentiary record
of threatened or actual harms, a contrast the Court
should consider in determining the balance between
donor privacy and generally required disclosures
necessary to investigate fraud.
ARGUMENT
THIS
COURT
DECIDED
NAACP
V.
ALABAMA AMIDST PERVASIVE PRIVATE
AND PUBLIC VIOLENCE AGAINST BLACK
AMERICANS
AND
WHITE
RACISTS’
EFFORTS TO PREVENT THEM FROM
ORGANIZING.
A. The NAACP Had Long Been a Target of
Violence
By
Public
and
Private
Opponents of Black Political Organizers
in the South.
In NAACP v. Alabama, this Court applied the
First Amendment against the backdrop of a
longstanding pattern of violence against Black
activists and political organizers in Black
communities across the South. Established in 1909,
in large part to combat violence against Black
Americans, the NAACP’s most sustained campaign to
date was the ultimately unsuccessful effort to secure

4
3
federal anti-lynching legislation. From the 1930s
through the 1960s, the NAACP and its affiliate Legal
Defense and Educational Fund spearheaded the effort
to resist “legal lynchings,” which railroaded Southern
Black men through spurious prosecutions for serious
(often capital) crimes they did not commit.4

The NAACP’s campaigns responded to pervasive
violence against Black Americans by private citizens
who worked in tandem with local and state
governments.5 Although legalized slavery in the
South ended in 1865, violence against the former
6
slaves persisted. Between 1865 and 1871, violence
against Black Americans erupted throughout the
region.7 After Reconstruction ended and federal
troops largely withdrew from the South, White
Southerners worked to deny Black Americans their
social and political rights, including their right to
vote. Lynchings were the hallmark of this era; any
kind of undesirable behavior by a Black man could
trigger the formation of a lynch mob that would seize
the man, torture and sometimes castrate him, and
execute him in a public setting that often had a
carnival atmosphere. Private and public acts of white
supremacist violence were often one and the same. In
P. Sullivan, Lift Every Voice: The NAACP and the Making Of
The Civil Rights Movement 43-77, 172-229 (2009).
4 Eskridge, Some Effects of Identity-Based Social Movements on
Constitutional Law in the Twentieth Century, 100 Mich. L. Rev.
2062, 2073-78, 2202-26, 2287-99 (2002).
5 H. Shapiro, White Violence and Black Response: From
Reconstruction to Montgomery xii (Univ. Mass. Press, 1988).
6 Finkelman, The Long Road to Dignity: The Wrong of
Segregation and What the Civil Rights Act of 1964 Had to
Change, 74 La. L. Rev. 1039, 1045-49 (2014).
7 Id., at 6-13.
3

5
almost all cases, authorities looked the other way, and
in many cases local law enforcement officials
cooperated with or even participated in lynch mobs.
Altogether, there were at least 1,900 documented
lynchings of Black Americans between 1882 and
8
1901.
In the decades following the end of Reconstruction
and the institution of Jim Crow, Black Americans’
acts of resistance to segregation and injustice
continued to be met with violent repression. In
response to the NAACP’s successful constitutional
attack on segregated public schools in Brown v. Board
of Education, 347 U.S. 483 (1954), and other
initiatives challenging segregation, Gayle v. Browder,
352 U.S. 903 (1956), White Southerners unleashed a
new round of violence against Black Americans who
sought to exercise their hard-won rights to integrated
schools, equal access to interstate transportation, and
voting in political primaries.9 This wave of violence
continued throughout the civil rights movement of the
mid-twentieth century. Between 1955 and 1966,
“white supremacists committed more than 1000
documented violent incidents aimed at stopping
integration, including bombing, burning, flogging,
abduction, castration, and murder.”10
Each of these acts of violence was illegal under
local or state law, and most were illegal under federal
law. Yet, for decades, virtually no perpetrators were
Id., at 31–32.
M. Klarman, How Brown Changed Race Relations: The
Backlash Thesis, 81 J. Am. Hist. 81, 88–90 (1994).
10 Bermanzohn, Violence, Nonviolence, and the Civil Rights
Movement, 22 New Political Sci. 31, 31 (2000); see also Shapiro,
supra note 5, at 393–470.
8
9

6
punished by local law enforcement officials. To the
contrary, government officials often took leadership
roles in encouraging or committing these pervasive
acts of violence. Many were in fact perpetrated by law
enforcement agencies, such as the famous 1965 attack
by the Alabama state police at the Edmund Pettis
Bridge in Selma, Alabama on peaceful civil rights
marchers supporting voting rights. As the NAACP
noted in its briefing before this Court in NAACP v.
Alabama, Black Americans were “refused official
protection from threats of physical violence,” even as
Alabama officials “committed themselves to a course
of persecution and intimidation” against those
11
NAACP leaders and
seeking desegregation.
members were assassinated in a number of southern
states, most prominent among them Medgar Evers.12
Rather than offering state remedies for White-onBlack violence, most southern states enacted or
enforced laws based on the idea that it was pro-civil
rights “agitators” and their organizations, including
the NAACP, who were violating the law, not those
who singled them out for acts of racial terrorism.13

Brief for Petitioner, NAACP v. Ala. ex rel. Patterson, 357 U.S.
449 (1958), No. 91, 1957 WL 87216, at *17.
12 See B. Green, Before His Time: The Untold Story
of Harry T. Moore, America’s First Civil Rights Martyr 9–10
(1999); T. Branch, Parting the Waters: America In the King Years
1954-63, 825 (1988) (describing the assassination of Medgar
Evers).
13 Schmidt, New York Times v. Sullivan and the Legal Attack on
the Civil Rights Movement, 66 Ala. L. Rev. 293, 299 (2014).
11

7
Politicians and other public officials were vocal
supporters of, and even direct participants in, extralegal violence against civil rights organizers.14 In
Birmingham, Alabama, the police department
conspired with the Ku Klux Klan to ensure that buses
carrying Freedom Riders would be attacked as they
15
arrived in the city. In Selma, Alabama, Sheriff Jim
Clark ordered his deputies to beat volunteers who
aided Black residents attempting to register to vote.16
Clark also ordered illegal mass arrests of Black
Alabamans attempting to register to vote, followed by
“forced marches,” where Black would-be voters were
made to walk for miles while being beaten with
nightsticks and shocked by electric cattle prods. As
the Alabama Federal District Court observed in
Williams v. Wallace, the decision which allowed the
Selma-to-Montgomery voting rights march to
continue following Bloody Sunday in 1965, these
actions were not “directed toward enforcing any valid
law of the State of Alabama or furthering any
legitimate policy of the State of Alabama, but [were]
for the purpose and have had the effect of preventing
and discouraging Negro citizens from exercising their
rights of citizenship.” 240 F. Supp. 100, 105 (M.D. Ala.
1965).
The NAACP was also a favorite target of state
governments, and disclosure of membership lists was
one of the preferred tools for repression. In 1956,
Mississippi tried to expose public school teachers who
M. Klarman, From Jim Crow to Civil Rights: The Supreme
Court and the Struggle for Racial Equality 426 (2004).
15 R. Arsenault, Freedom Riders: 1961 and the Struggle for
Racial Justice 136 (2006).
16 Id., at 232.
14

8
were involved with the NAACP by requiring teachers
to list all organizations with which they had been
involved during the previous five years.
Soon
afterward, Alabama, Arkansas, Louisiana, and
Virginia launched their own campaigns to force the
organization to disclose its membership. “The tactic
here,” as one of the undersigned amici has written,
“was simple, and often quite effective: force the
NAACP to disclose its membership rolls and then let
the tried-and-true processes of white intimidation
and retribution take over.”17
The gravity of the threat posed by these tried-andtrue tactics is evident in the lengths to which NAACP
officers went to protect the organization’s members
18
In the early 1960s, the
from identification.
NAACP’s national membership secretary, Lucille
Black, would mail membership cards to the NAACP’s
Atlanta office to be distributed individually to
NAACP members. Small-town NAACP members in
Georgia feared that if individual members received
membership cards through the postal service, local
postal officials might tip off the Ku Klux Klan or other
vigilante groups that would instigate violent
repression. The NAACP held secret membership
ceremonies to shield its members from potential
Schmidt, supra note 13, at 299.
The threat was hardly limited to Black NAACP members.
White Southerners who were members of, donors to, or attorneys
for Black civil rights activists also faced retribution and physical
harm if exposed. For example, white Montgomery attorney
Clifford Durr faced extreme retribution and death threats for his
legal advocacy on behalf of Rosa Parks and other Black civil
rights activists.
See J. Salmond, The Conscience Of A
Lawyer: Clifford J. Durr And American Civil Liberties, 18991975, 184–185 (1990).
17
18

9
19
violence. Alabama authorities had good reason to
hope that, as the state judge who initially heard
NAACP v. Alabama declared, forced disclosure would
“deal the NAACP . . . a mortal blow from which they
will never recover.”20

In short, this Court’s decision in NAACP v.
Alabama granted constitutional protection to
organizations that faced persistent, credible threats
of violence—violence often tolerated, encouraged, or
even committed by local and state governmental
authorities. The danger that NAACP supporters
faced from a law mandating disclosure of membership
lists was far from abstract. Since the end of the Civil
War, Black Americans who refused to obey the
demands of the local political order had been
subjected—along with their loved ones—to grotesque
acts of state-sanctioned and sometimes state-initiated
violence.
B. The Court’s Rulings in NAACP v. Alabama
and its Progeny Were Rooted in Thick
Evidentiary Records of Violence Against
NAACP Members.
The Court decided NAACP v. Alabama and its
progeny against more than just a background of
violence directed at Black political organizing efforts.
Those cases also featured evidentiary records replete
with threatened and actual violence against NAACP
members, amidst intensifying state efforts to discover
and make public their identities.
V. Jordan, Jr. & A. Gordon-Reed, Vernon Can Read! A
Memoir 153 (2008).
20 M. Tushnet, Making Civil Rights Law: Thurgood Marshall
and The Supreme Court, 1936–1961, 293 (1994).
19

10
As organized resistance to southern segregation
gained momentum in the 1950s and 1960s, southern
states targeted the NAACP by selectively enforcing
existing laws to demand that the NAACP turn over
membership lists to hostile state governments. Many
states also adopted new laws that criminalized the
NAACP’s practice of informing citizens of their
constitutional rights and referring them to civil rights
attorneys.21 In Button, this Court struck down one
such statute, adopted by Virginia, which barred
solicitation for legal business, warning that such
statutes can “easily become a weapon of oppression.”
NAACP v. Button, 371 U.S. 415, 436 (1963). The clear
purpose of these new laws—and the newly vigorous
and selective enforcement of existing laws—was to
intimidate the NAACP and expose its members to
serious harm.
Justice Harlan’s opinion for the Court in NAACP
v. Alabama is the leading precedent recognizing a
constitutional “freedom to engage in association for
the advancement of beliefs and ideas.” NAACP v.
Alabama ex rel. Patterson, 357 U.S., at 460. In that
case, the NAACP had made an “uncontroverted
showing” that disclosure of its members’ identities
would subject those persons to illegal retaliation from
both private and public actors. Because the State had
advanced no neutral public interest in disclosure that
could overcome the NAACP’s showing of harm, the
Court ruled that the state injunction violated the Due
Process Clause of the Fourteenth Amendment. Id., at
451.
See Schmidt, supra note 13, at 300-301 (describing Southern
states’ use of regulation of the legal profession to target the
NAACP).

21

11
NAACP v. Alabama did not involve a generally
applicable disclosure law.
Rather, Alabama’s
Attorney General sought to enjoin the NAACP from
operating at all in the State because, he contended, it
had failed to properly register in Alabama as a foreign
corporation—although disclosure of membership rolls
was not a requirement for registration. Id. As part of
that dispute, a court ordered the NAACP to turn its
membership rolls over to the State; that discovery
order was the action challenged in the case before the
Court in 1958. And, despite the NAACP’s willingness
to register as a foreign corporation, rendering the
dispute moot, the court refused to allow the NAACP
to register, and Alabama’s Attorney General
continued to seek the membership rolls while offering
no assurance that they would be kept confidential.
Id., at 464–65.
Nor should there be any doubt that the Justices
were aware of the repressive context in which the
NAACP operated in Alabama and other southern
states, even beyond the representations made in the
NAACP’s briefs.22 Government officials and private
bigots were all too eager to commit physical harm, to
terrorize, to destroy property, and to otherwise injure
supporters of civil rights for Black Americans.
Moreover, the Justices would have been aware that
the victims of such violence would lack any
meaningful legal recourse under the legal regime of
23
the segregationist Jim Crow South.

Brief for Petitioner, NAACP v. Ala. ex rel. Patterson, 357 U.S.
449 (1958), No. 91, 1957 WL 87216, at *16 n.12
23 Id., at 17 (noting that “the due process accorded petitioner
should be viewed against a background of open opposition by
22

12
The Court’s decision in Bates v. City of Little Rock,
361 U.S. 516 (1960), likewise shows the degree to
which the Court decided NAACP v. Alabama and its
progeny in reliance on a thick evidentiary record of
violence against NAACP members and supporters.
Relying on NAACP v. Alabama, the Bates Court
overturned the convictions of two NAACP officials for
violating local laws that required organizations to
provide their membership lists to cities, after which
the lists would be made available for public
inspection. The ordinances at issue “expressly
provide[d] that all information furnished shall be
public and subject to the inspection of any interested
party at all reasonable business hours.” Id., at 524.
In overturning the convictions, the Court made
explicit that the case implicated the constitutional
right
of
association
because
there
was
“uncontroverted evidence” that “public identification”
of NAACP members “had been followed by
harassment and threats of bodily harm.” Id. The
Court further noted that disclosure would clearly
have had a “repressive effect” on the group’s ability to
express its point of view and mount effective
challenges to the status quo. Id. Indeed, record
evidence, the Court observed, established that “fear of
community hostility and economic reprisals that
would follow public disclosure of the membership lists
had discouraged new members from joining the
organizations and induced former members to
withdraw.” Id. And because the organization was not
claiming tax exempt status, there was little (or no)
support for the government’s stated rationale for the
state officials and an atmosphere of violent hostility to petitioner
and its members”).

13
ordinances. Id., at 527 (“If the organizations were to
claim the exemption which the ordinance grants to
charitable endeavors, information as to the specific
sources and expenditures of their funds might well be
a subject of relevant inquiry”).
Finally, in Gibson v. Florida Legislative
Investigation Commission, 372 U.S. 539 (1963), the
Court ruled that Florida could not force the NAACP
to disclose its membership lists for use in a public
hearing. The Court’s opinion in that case was
expressly situated in the historical context of the Jim
Crow South:
Where the challenged privacy is that of
persons espousing beliefs already unpopular
with their neighbors and the deterrent and
‘chilling’ effect on the free exercise of
constitutionally enshrined rights of free
speech, expression, and association is
consequently the more immediate and
substantial. What we recently said in NAACP
v. Button, with respect to the State of Virginia
is as appears from the record, equally
applicable here: ‘We cannot close our eyes to
the fact that the militant Negro civil rights
movement has engendered the intense
resentment and opposition of the politically
dominant white community.’
Gibson, supra, at 556–57.
In short, the Court’s decisions in NAACP v.
Alabama, Bates, and Gibson were explicitly rooted in
the historical context of the Jim Crow South. All three
cases featured evidentiary records replete with
violence and state hostility directed at the NAACP, its
members, and its donors.

14
THE CONTEMPORARY CONTEXT OF
PETITIONERS’
REFUSAL
TO
MAKE
CONFIDENTIAL
DISCLOSURES
CONTRASTS SHARPLY WITH THAT FACED
BY THE NAACP IN THE 1950s AND 1960s.
As discussed above, this Court decided NAACP v.
Alabama in the context of decades of private and
public violence against racial and political minorities.
As the NAACP noted in its briefing before the Court
in 1957, “[t]his case cannot be considered without
being viewed against the background and setting in
which it arose.”24 Revisiting this historical context
brings into sharp relief the many ways in which the
present case differs from the civil rights cases of that
earlier era. Three distinctions are particularly
salient.
First, the record in this case does not contain the
overwhelming evidence mustered in the civil rightsera cases that providing list of members would likely
lead to public disclosures and to real physical harm;
instead, the record here contains scant evidence of
any substantial risk of either public disclosure or
harassment. Second, the disclosures here are
designed to remain confidential. Not so in NAACP v.
Alabama or its progeny, where publicity was
inevitable and in fact the real purpose of collecting the
information.
Finally,
should
either
the
confidentiality of the Schedule B disclosures be
breached or threats of violence against donors occur,
Petitioners have reliable and fair recourse through
the judicial system and the actions of local, state, and
federal prosecutors. NAACP members and other
Brief for Petitioner, NAACP v. Alabama ex rel. Patterson, 357
U.S. 449 (1958), at *12.
24

15
Black organizers in the Jim Crow South could rely on
no such assurances.
A. Threats of Harm
Black Americans, and people of all races who
supported the NAACP’s challenge to white
supremacy, reasonably feared not just threats, but
also physical assaults, kidnapping, torture,
mutilation, and murder. Teachers and other public
employees feared they would lose their jobs. They
justifiably believed that their homes would be
severely vandalized, firebombed, and destroyed, and
they justifiably worried that private racists would fire
them from their jobs, boycott their stores, and also
might work with government officials to deny them
legal rights and seek to imprison them on
manufactured charges.25 As the NAACP explained in
its briefing before this Court in NAACP v. Alabama,
“the infringements on constitutional rights of free
speech and association raised in the case at bar are
directly connected to the reprisals against members
indicated by the atmosphere in Alabama,” an
atmosphere that included “threats of violence as well
as actual force.”26
Underscoring this dangerous atmosphere was the
history of violent reprisals against NAACP members,
which were often directly connected to the disclosure
of membership lists. In 1940, Elisha Davis, a founder
of the Brownsville, Tennessee NAACP branch was
27
kidnapped by a mob in the middle of the night. The
25 Eskridge,

100 Mich. L. Rev., at 2073–78, 2202–26, 2287–99.
Brief for Petitioner, NAACP v. Alabama ex rel. Patterson, 357
U.S. 449 (1958), at *10.
27 Sullivan, supra note 3, at 237–39.
26

16
mob forced him to reveal the names of the branch’s
members and promised that he would be murdered if
he remained in Brownsville. Four days later, the body
of Elbert Williams, the Secretary of the Brownsville
NAACP branch, was found floating in a river outside
28
town. He had been stabbed in the chest and beaten
so severely that his head was swollen to twice its
normal size.29 Williams had been last seen being
forced into a car by Tip Hunter, a local police officer
who was also sheriff-elect. In the aftermath of Davis’
murder, the rest of the branch’s officers fled, and
Hunter and his supporters attempted to drive out all
of the branch’s remaining members, who lived in fear
30
that their names would be revealed.
The social context of disclosure in NAACP v.
Alabama was thus not one where African Americans
supporting the NAACP merely feared that they would
receive hostile telephone calls, or that racists would
boycott their stores. Were that the case, one could
rationalize the reprisals as part of America’s normal,
often uncivil, political discourse.
Boycotts, in
particular, are protected by the First Amendment,
and they are distinct from violence, threats, and other
forms of harassment.31 Although boycotts have costs
for the businesses and individuals they target, it is
these consequences that have made them so
“formative to the project of American democracy and
32
[vindicating of] key First Amendment values.” But
28

Id.

29 Id.
30 Id.

See generally Lee, Democratizing the Economic Sphere: A Case
for the Political Boycott, 115 W. Va. L. Rev. 531, 565 (2012).
32 Id., at 534.
31

17
to equate public criticism with the credible threats of
violence—and actual violence—suffered by NAACP
members and supporters at the time of NAACP v.
Alabama perverts the deep connection between
freedom of speech and American democracy. “[H]arsh
criticism, short of unlawful action,” wrote Justice
Scalia, “is a price our people have traditionally been
willing to pay for self-governance.” Doe v. Reed, 561
U.S. 186, 228 (2010) (Scalia, J., concurring).
B. Nature of Disclosure
Understanding the historical context at the time
of NAACP v. Alabama highlights a second key fact
distinguishing that case from the present one. Unlike
the disclosures at issue in that case, the Schedule B
form at issue in the present case is provided
confidentially to the California Attorney General and
includes the names of a select few donors. Brief for
Respondent 6. As discussed above, the NAACP cases
all involved public disclosure of membership rolls—
whether explicitly for public consumption as in Bates,
or implicitly as in NAACP v. Alabama and Gibson.
The public nature of membership disclosures was of
particular interest to the Court in NAACP v. Alabama
both because of the above-mentioned threats of
violence, and because of the potential chilling effect
that disclosure would have on future members.
NAACP v. Alabama, ex rel. Patterson, 357 U.S., at
462–463.
In contrast, the disclosures here are confidential,
are available only to the Attorney General’s Office,
and are already disclosed to the IRS. Brief for
Respondent 5–6. Further, it does not appear from the
record here that any individual member of
Petitioners’ organizations indicated that they would

18
be unwilling to donate if the disclosures continued,
belying Petitioners’ argument that disclosure would
have a chilling effect. Id., at 49–50.
C. Legal Recourse
A final crucial divergence between the historical
context in which NAACP v. Alabama arose and the
present cases lies in the ability of members or donors
of the organizations in question to seek effective legal
recourse.
As already noted, in NAACP v. Alabama, the
evidentiary record revealed that it was not just
private persons who visited illegal and violent
reprisals upon people opposed to segregation and who
dissented from political orthodoxy. Public officials,
too, participated in illegal and violent activities
against Americans who supported civil rights. The
State of Alabama actively persecuted civil rights
dissenters and tolerated murders and other forms of
violence against them. As the NAACP’s briefing in
NAACP v. Alabama noted, in the aftermath of Brown,
“[w]hile negroes have been refused official protection
from threats of physical violence, where negroes have
protested against deprivation of their rights, state
officials have been quick to curb this ‘lawless’
activity.”33 In the years after Brown,
[t]he Governor, Lt. Governor, state legislators,
the Alabama State Superintendent of Schools,
local officials and even judges [ ] consistently
issued
public
declarations
that
the
constitutional mandate prohibiting racial

Brief for Petitioner, NAACP v. Alabama ex rel. Patterson, 357
U.S. 449 (1958), at *16–17.

33

19
discrimination in public education should be
resisted and segregation strengthened.34
In fact, the state trial court judge in NAACP v.
Alabama was himself an ardent public opponent of
integration. In 1957, he wrote a newspaper column
arguing that civil rights supporters’ “real and final
goal [was] inter-marriage and mongrelization of the
American people.”35
This unyielding opposition to Brown and the
broader goals of the civil rights movement highlights
the extent to which the Alabama government had, at
all levels, abandoned any pretense of adhering to the
rule of law and had wholeheartedly devoted itself to
36
maintaining segregation. The plaintiffs in NAACP
v. Alabama were not simply engaged in policy
debates; they were challenging the entire state
apparatus of segregation. This context of open
opposition by state officials and an atmosphere of
violent hostility to the organization and its members
was central to the NAACP’s request for an exemption
from disclosure.37
Id., at *12–14.
Id., at *40.
36 Indeed, the Fifth Circuit later took judicial notice of the
inextricability of the policies of segregation and the state
enforcement that provided the force backing them: “We again
take judicial notice that the State of Mississippi has a steel-hard,
inflexible, undeviating official policy of segregation. The policy is
stated in its laws. It is rooted in custom. The segregation signs
at the terminals in Jackson carry out that policy. The Jackson
police add muscle, bone, and sinew to the signs.” United States
v. City of Jackson, Miss., 318 F.2d 1, 5–6 (5th Cir. 1963)
(footnotes omitted).
37 Brief for Petitioner, NAACP v. Alabama ex rel. Patterson, 357
U.S. 449 (1958), at *12–15.
34
35

20
Here, there is little evidence that similar
repression to that faced by NAACP members is even
remotely likely. But should that remote likelihood
come to pass, there is simply no indication that local,
state, or federal law enforcement officials would fail
to investigate complaints of serious vandalism or
threatened assault against Petitioner’s supporters.
Likewise, there is no evidence that local, state, or
federal law enforcement officials have themselves
been investigating, persecuting, or robbing churches
and organizations, as occurred in midcentury
Alabama.
Finally, it is worth reiterating that California law
requires that Schedule Bs be kept confidential. See
Cal. Code Regs. tit. 11, § 310(b). Should the Attorney
General or other individual with access to Petitioners’
Schedule Bs make such filings public, Petitioners
could bring their claims in the appropriate venue.
Again, the present context diverges dramatically from
the milieu in which the NAACP operated in the 1950s
and early 1960s. When the Court decided NAACP v.
Alabama, much of the system of state and local law
enforcement was aimed at enforcing the law
against—rather than for the protection of—Black
Americans and their White civil rights allies, leaving
few meaningful avenues of legal redress.
In sum, amici respectfully believe it is important
to contrast the factual records underlying this Court’s
decisions in NAACP v. Alabama, Bates, and Gibson
with the contemporary context in which Petitioners’
challenge arises. The decisions in NAACP v. Alabama
and its progeny explicitly relied upon evidence of
violent reprisals, near-certain disclosures to the
public at large, and a disregard of enforcement by
state and local officials. This Court should consider

21
the absence of such dire circumstances in the present
case.
CONCLUSION
For the foregoing reasons, the judgment below
should be affirmed.
Respectfully submitted,
Erin Bernstein
Darin Sands
Counsel of Record
Abigail Burman
Bradley Bernstein Sands LLP
3911 Harrison St., Suite 100
Oakland, CA 94611
dsands@bradleybernsteinllp.com
Counsel for Amici Curiae
David Freeman Engstrom
Professor of Law,
Bernard D. Bergreen Faculty Scholar, and
Associate Dean
Stanford Law School
559 Nathan Abbott Way
Stanford, CA 94305-8610

22
APPENDIX
Amici, whose names and affiliations are set forth
below, are professors who study legal history and
subscribe to the views stated in this amici brief. To
the best of their knowledge, none of them have any
financial interest in the outcome of this case:
Tomiko Brown-Nagin
Daniel P.S. Paul Professor of Constitutional Law
Harvard Law School
Professor of History, Faculty of Arts and Sciences
Harvard University
Orville Vernon Burton
Judge Matthew J. Perry, Jr. Distinguished
Professor of History
Clemson University
Gabriel J. Chin
Edward L. Barrett Jr. Chair and
Martin Luther King Jr. Professor of Law
University of California, Davis, School of Law
Jane Dailey
Department of History,
the Law School, and the College
The University of Chicago
Mary L. Dudziak
Asa Griggs Candler Professor of Law
Emory University School of Law
William N. Eskridge Jr.
John A. Garver Professor of Jurisprudence
Yale Law School

23
Paul Finkelman
President and Distinguished Professor of History
Gratz College
President William McKinley Distinguished Professor
of Law, Emeritus
Albany Law School
Paul Frymer
Professor of Politics
Princeton University
H. Timothy Lovelace, Jr.
Professor of Law
John Hope Franklin Research Scholar
Duke University School of Law
Sophia Z. Lee
Professor of Law and History
University of Pennsylvania Law School
Kenneth W. Mack
Lawrence D. Biele Professor of Law and
Affiliate Professor of History
Harvard University
Serena Mayeri
Professor of Law and History
University of Pennsylvania Carey Law School
Christopher W. Schmidt
Professor of Law and Associate Dean for
Faculty Development
Chicago-Kent College of Law

